OIG Investigative Reports, Former MCDI Officials Convicted of Conspiracy, Wire Fraud, Program Fraud, and Obstruction of Justice
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
February 28, 2005
PRESS RELEASE
FORMER MCDI OFFICIALS CONVICTED OF CONSPIRACY,
WIRE FRAUD, PROGRAM FRAUD, AND OBSTRUCTION OF JUSTICE
Springfield, MA... A federal trial jury today convicted four former officials of the Massachusetts Career Development Institute ("MCDI"), including the Executive Director, on charges of conspiracy, wire fraud, program fraud, making false statements to federal law enforcement investigators, and obstruction of justice. MCDI, a quasi private/public department of the City of Springfield located at 140 Wilbraham Avenue in Springfield, provides educational and job training programs for income-eligible participants and other individuals and receives federal funding.
United States Attorney Michael J. Sullivan; Kenneth W. Kaiser, Special Agent in Charge of the Federal Bureau of Investigation in New England; Peter Emerzian, Special Agent in Charge of Department of Housing and Urban Development's Office of Inspector General; and Gary E. Mathison, Special Agent in Charge of the Department of Education's Office of Inspector General for New England, announced today that a federal jury has found GERALD PHILLIPS, age 50, of 272 Longhill Street, Springfield, Massachusetts, guilty of Conspiracy to Commit Wire Fraud and/or Program Fraud; Wire Fraud (two counts); and Program Fraud. The jury also convicted GUISEPPI POLIMENI, age 55, of 248 Roy Street, Springfield, Massachusetts, of Conspiracy to Commit Wire Fraud and/or Program Fraud; Wire Fraud (three counts); Program Fraud (three counts); Conspiracy to Obstruct Justice; Obstruction of Justice (two counts); and, Making a False Statement. The jury further convicted JAMIE DWYER, age 51, of 548 Nassau Dr., Springfield, Massachusetts, Conspiracy to Commit Wire Fraud and/or Program Fraud; Wire Fraud (two counts); Program Fraud (two counts); Conspiracy to Obstruct Justice; Obstruction of Justice; and, Making a False Statement. Finally, the jury found LUISA CARDAROPOLI , age 50, of 6 Kensington Avenue, East Longmeadow, Massachusetts, guilty of Conspiracy to Commit Wire Fraud and/or Program Fraud; Wire Fraud; Program Fraud; and Making a False Statement.
The jury acquitted PHILLIPS of two Wire Fraud charges, a Conspiracy to Obstruct Justice charge, and a Witness Intimidation charge. The jury acquitted POLIMENI of a single Obstruction of Justice charge. The jury acquitted DWYER of a Wire Fraud charge, a Program Fraud charge, and an Obstruction of Justice charge. Finally, the jury acquitted CARDAROPOLI of Conspiracy to Obstruct Justice and Obstruction of Justice.
MCDI, which receives funding from the Departments of Education and Housing and Urban Development, is a quasi private/public department of the City of Springfield providing educational and job training programs for income-eligible participants and other individuals. MCDI has an affiliate, named MCDI, Inc., that provides similar services. PHILLIPS, POLIMENI, DWYER, and CARDAROPOLI conspired to commit wire fraud in order to fraudulently obtain for themselves and others money and other things of value from MCDI, Inc. for their own or someone else's personal benefit. This principally occurred by employing "no-show" or "partial-show" employees.
The evidence at trial specifically identified three no or partial-show employees: POLIMENI's son-in-law, a former MCDI student and employee, and CARDAROPOLI. According to testimony at trial, the former MCDI student and employee received her no-show job in return for sexual favors to PHILLIPS. The scheme operated by POLIMENI and DWYER fabricating summary payroll sheets reflecting hours worked by POLIMENI's son-in-law, the MCDI student, and CARDAROPOLI and then faxing those payroll sheets to MCDI, Inc.'s payroll service. The payroll service then issued payroll checks in the name of POLIMENI's son-in-law, the MCDI student, and CARDAROPOLI. PHILLIPS and POLIMENI cashed some of the MCDI student's payroll checks.
The jury also concluded that POLIMENI, DWYER and CARDAROPOLI obstructed justice. POLIMENI and DWYER altered POLIMENI's son-in-law's timesheets before producing those timesheets to the federal grand jury investigating the case to make it appear as if he actually worked at MCDI, Inc. POLIMENI, DWYER and CARDAROPOLI also obstructed justice during interviews with Special Agents of the FBI. The evidence at trial showed that POLIMENI falsely denied any knowledge of no-show employees; DWYER falsely stated that she believed the MCDI student worked a full shift; and CARDAROPOLI falsely stated that she in fact worked twenty to twenty-five hours per week at MCDI.
Judge Ponsor did not set a date for sentencing. PHILLIPS, POLIMENI, DWYER, and CARDAROPOLI face a maximum term of imprisonment of 5 years and a fine of $250,000 for the Conspiracy charge and each Wire Fraud charge, and ten years and a fine of $250,000 for each Program Fraud charge. Additionally, POLIMENI and DWYER face a maximum term of imprisonment of 10 years and a fine of $250,000 for each Obstruction of Justice charge. Finally, POLIMENI, DWYER and CARDAROPOLI face a maximum term of imprisonment of 5 years and a fine of $250,000 for the False Statement charges.
This case is the result of an investigation by the Federal Bureau of Investigation, the Department of Housing and Urban Development's Office of Inspector General, and the Department of Education's Office of Inspector General. It is being prosecuted by Assistant U.S. Attorney William M. Welch, II and Karen Goodwin in Sullivan's Springfield Office.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 11/17/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov